                                      UNITED STATES OF AMERICA
                                 FEDERAL LABOR RELATIONS AUTHORITY
                                      WASHINGTON, D.C. 20424-0001
INSPECTOR GENERAL




  MEMORANDUM

  DATE:         December 6, 2013

  TO:           Carol Waller Pope
                Chairman

  FROM:         Dana Rooney-Fisher
                Inspector General

  SUBJECT:      Report on the Financial Statement Audit of the Federal Labor Relations Authority
                for Fiscal Year 2013 Report No. AR-14-01


                The Accountability of Tax Dollar Act of 2002 requires the Federal Labor
                Relations Authority (FLRA) to prepare and submit to Congress and the Director
                of the Office of Management and Budget an audited financial statement. The
                enclosed report presents the results of the audit of the FLRA’s financial
                statements for the Fiscal Years ended September 30, 2013 and 2012. The report
                should be read in conjunction with the FLRA’s financial statements and notes to
                fully understand the context of the information contained therein.

                We contracted with the independent firm of Dembo, Jones, Healy, Pennington &
                Marshall, P.C. (DJHPM) to audit the FLRA balance sheets as of September 30,
                2013 and 2012, and the related statements of net cost and changes in net position
                and statement of budgetary resources, for the years ended. The contract required
                that the audit be performed in accordance with auditing standards generally
                accepted in the United States of America; the standards applicable to financial
                audits contained in Government Auditing Standards, issued by the Comptroller
                General of the United States; and applicable provisions of Office of Management
                and Budget Bulleting No. 07-04, as amended, “Audit Requirements for Federal
                Financial Statements, as amended.”

                The following results were noted from DJHPM’s audit of FLRA’s financial
                statements.

                       DJHPM expressed an unqualified opinion on FLRA’s financial statements
                        and reported that they presented fairly, in all material respects, the
                        financial position of FLRA as of September 30, 2013 and 2012;
      DJHPM was not contracted for and did not provide an opinion on the
       effectiveness of FLRA’s internal controls. However, DJHPM did state
       that they did not find any deficiencies in internal controls that were
       considered to be material weaknesses, relative to their expressing an
       opinion on FLRA’s financial statements; and
      DJHPM found no instances of noncompliance with laws and regulations.

Evaluation and Monitoring of Audit Performance

We reviewed DJHPM’s report and related documentation and made necessary
inquiries of its representatives. Our review, as differentiated from an audit in
accordance with U.S. Generally Accepted Government Auditing Standards, was
not intended to enable us to express, an accordingly we do not express, an opinion
on FLRA’s financial statements, the effectiveness of internal controls, whether
FLRA’s financial management systems substantially complied with the Federal
Financial Management Improvement Act, or compliance with laws and
regulations. However, our monitoring review, as limited to the procedures listed
above, disclosed no instances in which DJHPM did not comply, in all material
respects with Government Auditing Standards.

We appreciate the courtesies and cooperation extended to DJHPM and the OIG
during the audit. If you should have any questions concerning this report, please
let me know.


Attachment

cc: Ernest DuBester, Member
    Patrick Pizzella, Member
    Sarah Whittle Spooner, Acting Executive Director
    Kevin Smith, Director Budget and Finance
